OIG Investigative Reports, Jackson MS,  November 4, 2011 - Twelve Mississippians Charged with Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
U.S. Department of Justice
United States Attorney
Southern District of Mississippi
FOR IMMEDIATE RELEASE
November 4, 2011
TWELVE MISSISSIPPIANS CHARGED WITH STUDENT LOAN FRAUD
Jackson, Miss - A federal grand jury has indicted twelve Mississippians for their
involvement in a scheme to defraud the United States Department of Education of federal
student aid funds, U.S. Attorney John Dowdy announced today. Stephanie R. Brewer a/k/a
Stephanie R. Williams, 41, Kashayla Henry, 32, Laketa Vaughn, 31, and Laketra Vaughn, 31, of
Columbus; Shawanda Bryant, 36, Frances Rigdon, 35, Lakeisha Smith, 28, Shameka Smith, 29,
Shanika Smith, 25, Tommie Wallace, 44, and Santario Yates, 21, of Macon; and Cedrick
Thomas, 29, of Shuqualak, were charged in the 22-count indictment returned on Tuesday,
November 1, 2011. The charges include mail fraud, financial aid fraud and conspiracy to
commit mail fraud and financial aid fraud.
According to the indictment, the defendants prepared and submitted fraudulent student
admission applications and loan applications, and received federal financial aid when they never
intended to attend the online courses. The indictment alleges that Stephanie Brewer expected a
“fee” or “cut” of approximately $800.00 from the federal financial aid awarded to each
fraudulent student. As a result, over $52,000 in student loan and grant funds were unlawfully
disbursed to these defendants.
The case is scheduled for trial on January 9, 2012 before U.S. District Judge Henry T.
Wingate in Jackson. If found guilty, Stephanie Brewer, who is named in all 22 counts of the
indictment, faces a maximum penalty of 260 years in prison. Kashayla Henry faces a maximum
penalty of 10 years in prison, and each of the remaining defendants face a maximum penalty of
30 years in prison.
Agents from the United States Department of Education Office of Inspector General
conducted the investigation in this case.
U.S. Attorney Dowdy noted that, as in any criminal case, a person is presumed innocent
until and unless proven guilty. The charges filed merely contain allegations of criminal conduct.
###
Top
Printable view
Last Modified: 11/10/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov